 STATUS REPORT ON NAFTA CROSS-
BORDER TRUCKING DEMONSTRATION
           PROJECT
   Federal Motor Carrier Safety Administration

         Report Number: MH-2009-034
         Date Issued: February 6, 2009
           U.S. Department of
                                                     Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Status Report on NAFTA Cross-Border                Date:    February 6, 2009
           Trucking Demonstration Project
           Federal Motor Carrier Safety Administration
           Report No. MH-2009-034

  From:    Joseph W. Comé                                          Reply to
                                                                   Attn. of:   JA-40
           Assistant Inspector General
             for Highway and Transit Audits

    To:    Acting Federal Motor Carrier Safety Administrator

           This final report presents the status of our review of the Department’s ongoing
           North American Free Trade Agreement (NAFTA) cross-border trucking
           demonstration project, at the conclusion of the first year of the project. The
           Department initiated the demonstration project on September 6, 2007, for 1 year,
           and extended the project for 2 additional years on August 6, 2008. 1 Section 6901
           of the U.S. Troop Readiness, Veterans’ Care, Katrina Recovery, and Iraq
           Accountability Appropriations Act, 2007 (the Act) 2 requires us to provide interim
           and final reports on the demonstration project to the Congress and the Secretary of
           Transportation. We issued an interim report on March 10, 2008.

           As required by the Act, our objectives were to determine whether:
                  • the demonstration project consists of a representative and adequate sample
                    of Mexico-domiciled carriers likely to engage in cross-border operations
                    beyond the United States municipalities and commercial zones on the
                    United States-Mexico border,
                  • the Department has established sufficient mechanisms to determine
                    whether the demonstration project is adversely affecting motor carrier
                    safety, and
                  • Federal and state monitoring and enforcement activities are sufficient to
                    ensure that participants in the demonstration project are complying with
                    all applicable laws and regulations.
           1
               73 FR 45796-45797 (August 6, 2008).
           2
               Pub. L. No. 110-28 (2007).
                                                                                                       2


Additionally, during our testimony on March 11, 2008, Congress requested 3 that
we examine the circumstances surrounding the February 1, 2008, Trinity
Industries de Mexico (Trinity) withdrawal from the project and review information
regarding the safety records of Mexican carriers approved for the pilot program,
specifically Trinity. Congress also requested that we determine whether any
participating carriers with poor safety records were approved for project
participation.

We conducted this performance audit from April through October 2008, with field
site visits to the southern border crossings occurring from April through June
2008. We conducted this audit in accordance with Generally Accepted
Government Auditing Standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. Exhibit A provides further details on
our audit scope and methodology and exhibit B provides details on our prior
audits.

BACKGROUND
In our March 10, 2008, interim report, 4 we reported that: (1) fewer carriers and
vehicles than expected had participated in the demonstration project, which
provided an insufficient number to reliably predict the safety behaviors of future
Mexican long-haul carriers; (2) the Department was supporting an independent
panel to assess any adverse safety impact from the project; and (3) the Federal
Motor Carrier Safety Administration (FMCSA) had established and enhanced
mechanisms for Federal and state monitoring and enforcement of safety rules.
However, a key quality control measure designed to ensure that checks of all
Mexican drivers and vehicles crossing the border were occurring had not been
implemented. Consequently, FMCSA did not have assurance that every Mexican
truck and driver participating in the project had been checked when they crossed
the border into the United States.

The demonstration project has been challenged both in the courts and by the U.S.
Congress. Litigation is before the U.S. Court of Appeals for the 9th Circuit.
Legislation was passed in December 2007, regarding funding for cross-border
motor carrier demonstration projects. Further details on the status of these actions
are provided in exhibit C.

3
    March 11, 2008, Oversight Hearing on the Cross-Border Truck Pilot Program, U.S. Senate Committee on
    Commerce, Science and Transportation.
4
    OIG Report Number MH-2008-040, “Interim Report on NAFTA Cross-Border Trucking Demonstration Project,”
    March 10, 2008. OIG reports and testimonies can be found on our website: www.oig.dot.gov.
                                                                                                                        3


RESULTS IN BRIEF
Based on our review of the project’s first year, FMCSA continued to have
inadequate participation in the project to provide statistically reliable results. The
independent evaluation panel, formed to assess any adverse safety impacts
resulting from the project, agreed that participation so far had been inadequate and
reported that no crashes involving project participants were identified on FMCSA
records.

Our review also found that FMCSA had implemented planned enforcement and
monitoring activities, such as checks of participating trucks and drivers upon entry
into the United States. FMCSA also implemented a quality control measure to
provide assurance that all trucks and drivers were checked at the border, but it
cannot provide this assurance because it relies on incomplete data. Additionally,
the systems set up for monitoring Mexican carriers and checking insurance were
working as planned, although the Global Positioning System (GPS) acquired for
monitoring truck movements had limited capabilities.

The demonstration project did not have an adequate number of Mexican
carrier participants and participants are not representative in some respects
of Mexican carriers that applied for long-haul authority. Although during the
first year, the participants had no reportable crashes and collectively had out-of-
service rates lower than U.S. carriers, FMCSA had not demonstrated that
participation in the demonstration project will be adequate to yield statistically
valid results, as regulations for a pilot program require. 5 Participation of Mexican
carriers was far below projected levels, 6 to date, and the level of participation was
not adequate to provide statistically valid findings that will allow FMCSA to
project safety performance to the pool of applicants for long-haul authority. The
participants were not representative of Mexican carriers likely to conduct long-
haul operations 7 in terms of some business characteristics, such as the form of
ownership, or in terms of prior safety history. Further, applicants were subjected
to a vetting procedure that resulted in 138 Mexican carriers not being eligible for
the demonstration project. FMCSA has not decided whether to apply some of
these vetting procedures should the border open under NAFTA rules.

5
    The Act requires FMCSA to conduct the demonstration project in compliance with requirements of a pilot program
    in 49 U.S.C. 31315(c). Pilot programs must meet certain elements; including a reasonable number of participants to
    yield statistically valid findings and a specific data collection and safety analysis plan that identifies a method for
    comparison.
6
    Projections on the number of carriers, trucks, and mileage were made by the Chief Analyst of the Analysis Division,
    Federal Motor Carrier Safety Administration, Office of Research and Analysis in a declaration dated August 30,
    2007.
7
    For this audit, we defined Mexican carriers likely to conduct long-haul operations as those carriers that have applied
    for authority to travel in the United States beyond the commercial zones along the United States-Mexico border.
    FMCSA provided us with 775 such applications. The actual number of Mexican carriers that would conduct long-
    haul operations could be significantly less or more than 775, should the southern border with Mexico be opened.
                                                                                                                          4


Specifically, we found that during the first year of the demonstration project,
September 6, 2007, through September 5, 2008:

       • Participants had a driver out-of-service rate of 0.46 percent and a vehicle
         out-of-service rate of 8.29 percent. In contrast, U.S. carriers had a driver
         out-of-service rate of 6.94 percent and a vehicle out-of-service rate of
         21.72 percent.

       • Only 29 of 100 projected Mexican carriers were admitted to the project and
         2 of those carriers have since withdrawn. This level of participation is not
         adequate to yield statistically valid findings. Only 118 8 of a projected 540
         trucks have participated.

       • Only 1,443 of 12,516 (11.5 percent) trips that FMCSA recorded were
         identified as going beyond the commercial zone. 9

       • FMCSA could not substantiate its estimate that each Mexican truck would
         travel at least 34,500 miles during the year because it did not measure
         mileage.

       • The vetting procedure eliminated from consideration in the demonstration
         project 138 of 778 Mexican carriers that applied for long-haul authority.10
         As a result, the pool of eligible participants differs from all other applicants
         for long-haul authority.

The Department will no longer rely on the Independent Evaluation Panel to
determine whether the demonstration project is adversely affecting motor
carrier safety. In May 2007, the Department announced its intention to provide
for an independent evaluation of the demonstration project. 11 This announcement
stated that the panel would work independently from other monitoring efforts and
that the panel’s conclusions would be considered carefully before a decision is
made on a permanent full implementation of the NAFTA trucking provisions. In
June 2007, 12 the Department clarified the standards that the panel would use to
evaluate the demonstration project. Specifically, the panel was to evaluate the

8
     FMCSA’s projection of 540 trucks was based on the number of trucks identified for demonstration project
     participation during the pre-authorization safety audits. The actual number of trucks that participate will vary from
     this number as carriers are free to add or delete trucks throughout the project; but indications are that this number is
     reasonable.
9
     Commercial zones at the southern border extend from 3 miles to about 25 miles from the border and 75 miles within
     the State of Arizona.
10
     FMCSA provided us with a list of 778 Mexican carriers that applied for authority to conduct long-haul operations in
     the United States and copies of applications from 775 of the carriers.
11
     72 FR 23886 (May 1, 2007).
12
     72 FR 31883 (June 8, 2007).
                                                                                   5


safety impacts of allowing Mexico-domiciled motor carriers to operate on United
States roads beyond the commercial zones. Although the Department supported
the panel during the first year of the project, it did not extend the services of the
panel beyond the first year. FMCSA has indicated that it will continue to monitor
the demonstration project participants and conduct an internal evaluation of any
effects of the project on motor carrier safety in the United States using various
monitoring and enforcement mechanisms. FMCSA also stated that it would rely
on special rules, operational policies, guidelines, and a safety monitoring system
for Mexican carriers that operate beyond the commercial zones, and periodic
tracking of Mexican carriers’ safety performance measures, such as out-of-service
rates and reportable crashes, to conduct this evaluation.

FMCSA implemented Federal and state monitoring and enforcement
mechanisms, but a key quality control measure was not adequate to provide
assurance that every Mexican truck was checked at the border. Specifically,
we found that FMCSA took the following actions.

   • FMCSA implemented site-specific plans to identify demonstration trucks
     entering the United States at commercial border crossings. Procedures at
     9 of 11 border crossings we visited were effective in reducing the risk that
     Mexican trucks would not be identified, and FMCSA took immediate
     action to reduce risk at a 10th site. Risk at the eleventh site was mitigated
     because very few demonstration project trucks were using that border
     crossing.

   • FMCSA recorded 12,516 checks of Mexican carriers as they crossed the
     border into the United States, but could not ensure that all trucks were
     checked at the border. We have no evidence that Mexican carriers were not
     checked at the border. However, FMCSA’s quality control measure that
     was designed to provide this assurance relies on data from U.S. Customs
     and Border Protection (CBP) that do not include entries of all
     demonstration trucks into the United States.

   • Approximately 1,700 law enforcement personnel from 16 states took
     advantage of training FMCSA and the International Association of Chiefs
     of Police (IACP) offered on foreign motor vehicle awareness and
     requirements of the demonstration project. In addition, over 1 million
     education brochures were distributed Nationwide.

   • FMCSA’s automated Licensing and Insurance and Mexican Monitoring
     systems are working well to identify infractions of motor carrier safety
     rules and regulations and initiate enforcement actions.
                                                                                                                        6


       • For the project participants, as of August 29, 2008, only 74 of 106 trucks
         identified by the 27 active project participants were outfitted with GPS
         devices. These devices allow the GPS system to track a truck’s location
         through pings generated automatically at random intervals.            GPS
         installation lagged behind the granting of provisional authority by an
         average of 61 days. Additionally, the GPS services did not include the
         capability to identify dates and times of international crossings, detect
         passage beyond the commercial zones, or track mileage.

Trinity Industries de Mexico (Trinity) withdrew from the project to avoid
business disruptions; and its prior safety history showed that its out-of-
service rates 13 were lower than those of United States carriers. Trinity did not
respond to our request for information on its withdrawal from the demonstration
project, but our review of Trinity’s written request to withdraw and our
discussions with FMCSA personnel indicated that Trinity withdrew from the
demonstration project on its own initiative. Further, our analysis of safety
performance data indicated that Trinity was not an unsafe carrier in comparison to
U.S. carriers. Our review found the following.

       • Trinity officials informed FMCSA that requirements to check every truck
         during every border crossing were proving costly to its operations. Our
         analysis showed that when Trinity was participating in the demonstration
         project, it received an average of 16 inspections each day. When not
         participating, the inspection rate dropped to less than one inspection per
         day.

       • Trinity trucks were not traveling beyond the commercial zone during the
         demonstration project and a return to commercial zone operations would
         not disrupt business operations.

       • The Owner-Operator Independent Drivers Association’s (OOIDA) claim
         that Trinity had received over 112 violations per truck during the year prior
         to the demonstration project was substantiated; but OOIDA’s claim did not
         indicate that Trinity’s out-of-service violations numbered only 74, or an
         average of 7.4 out-of-service violations per motorized vehicle over the
         1-year period. Trinity’s out-of-service rates were lower than similar rates
         for United States carriers during this same period. We found no evidence
         that Trinity or other demonstration project participants had poor safety

13
     Out-of-service rates are calculated by dividing the number of inspections yielding one or more out-of-service
     violations by the total number of inspections performed. Out-of-service violations are those violations considered to
     be severe enough to place the driver or vehicle out-of-service until the violation is corrected. Driver out-of-service
     rates are based on North American Standard Truck Inspection Levels I, II, and III. Vehicle out-of-service rates are
     based on Levels I, II, and V.
                                                                                 7


      histories before being admitted into the project based on FMCSA’s data on
      the operations of these carriers in the United States.

We are recommending that FMCSA determine the minimum number of Mexican
carriers that must participate in the demonstration project to yield statistically
valid results and develop a plan to meet this level of participation as needed,
develop and implement a new quality control plan to provide assurance that all
Mexican trucks are checked at the border, and conduct a cost/benefit analysis to
evaluate the benefits of renewing GPS services.          The complete list of
recommendations is on page 24.

We provided FMCSA with our draft report on December 17, 2008. FMCSA
provided formal comments on January 16, 2009, which are contained in their
entirety in the appendix to this report. In its comments, FMCSA disagreed with
our assumption on the number of carriers likely to engage in long-haul operations
in the future, a key component in calculating the minimum number of Mexican
carriers that must participate in the demonstration project to yield statistically
valid results. However, FMCSA did not provide its own assumption of the
number of carriers or address certain factors that we consider important in this
calculation. In addition, FMCSA provided clarifying comments on other
statements in the report, particularly on our examination of the representativeness
of the project participants, and discussed plans to use GPS as a component of a
new quality control plan.

FMCSA concurred with all our recommendations except the recommendation to
determine whether using GPS services provides benefits that outweigh the costs.
We accepted FMCSA’s alternative action to include use of GPS as part of its
revised quality control plan in lieu of cost/benefit analysis and requested that
FMCSA provide its target completion dates, as required, for all planned actions.
FMCSA comments and our response are fully discussed beginning on page 25.

FINDINGS

Demonstration Project Lacks An Adequate Number of Carriers
and Participants Are Not Representative In Some Respects of
Mexican Carriers Likely to Conduct Long-Haul Operations in the
United States
Based on our analysis, at the end of the first year of the demonstration project,
participants had lower out-of-service rates than all U.S. carriers, but FMCSA had
not defined or enrolled an adequate number of Mexico-domiciled carriers to
provide statistically reliable results, as required by Congress. In announcing the
                                                                                                                       8


demonstration project, FMCSA stated that up to 100 Mexican carriers would
participate in the project and provided a projection of the number of trucks that
100 Mexican carriers would operate and the mileage they would generate. At the
end of the first year of the project, only 29 14 had been granted provisional
operating authority. Based on our statistical analysis, this level of participation is
not adequate to project certain behaviors, such as safety performance, to those
Mexican carriers likely to conduct long-haul operations in the future. 15

The 29 carriers that participated in the project were not representative of all
Mexican carriers that have applied for long-haul authority in some respects. The
participants demonstrated statistically significant differences from all other
applicants in terms of certain business characteristics as well as out-of-service
rates measured over the 4-year period prior to the demonstration project. This
difference continued during the first year of the demonstration project.

Finally, participants may not be representative because they were subjected to and
passed a vetting process that FMCSA applied to applicants for the demonstration
project. Only those applicants that successfully passed a vetting process were
allowed to participate in the project. The vetting process excluded 138 (about
18 percent) of 778 applicants for long-haul authority that FMCSA is tracking; that
is, those that carry passengers or hazardous materials, or had outstanding FMCSA
enforcement actions or credible evidence of criminal wrongdoing. FMCSA
officials stated that they have not decided whether criminal vetting procedures will
be applied to all Mexican carriers that apply for long-haul operating authority
should the border be opened.

Although participation was not sufficient to provide performance measures that
could be projected to all Mexican carriers likely to conduct long-haul operations in
the future, the out-of-service rates for participants during the first year were
significantly lower than the rates for U.S. carriers. In addition, the out-of-service
rates for participants were lower than rates for other groups of Mexican carriers
that already operate in the United States, including commercial zone carriers 16 and
grandfathered and certificated carriers 17 as shown in table 1 below.



14
     Of the 29 carriers who have participated in the demonstration project, 2 withdrew in the first year. Trinity withdrew
     from the project on February 1, 2008, after 79 days of participation and Orlando Nevid Lopez Hernandez withdrew
     on June 19, 2008, after 107 days of participation.
15
     Exhibit A provides our statistical analysis.
16
     Commercial zone carriers are Mexican carriers that are restricted to operations in the commercial zones along the
     United States-Mexico border. They are commonly referred to as OP-2 carriers.
17
     More than half of the applicants received Interstate Commerce Commission permission to operate in the United
     States before Congress imposed a moratorium in 1982, (referred to as grandfathered carriers) or received permission
     to operate in the United States before the 2002 Interim Final Rules implemented NAFTA (referred to as certificated
     carriers).
                                                                                                9




           Table 1. Comparison of Out-of-Service Rates of Project
                 Participants To Other Carrier Groups From
               September 6, 2007, Through September 5, 2008
                                                           Driver Out-of-Service Vehicle Out-of-
Carrier Group                                                   Rates (%)        Service Rates (%)
Project Participants                                               0.46                 8.29
Commercial Zone Carriers                                           1.08                21.60
Grandfathered/Certificated Carriers                                3.79                24.23
U.S. Carriers                                                      6.94                21.72
Source: OIG analysis of FMCSA’s Motor Carrier Management Information System (MCMIS) data



FMCSA Has Not Defined the Minimum Number of Participants
Required to Produce Statistically Valid Results
In its May 1, 2007, announcement of the demonstration project, FMCSA stated it
would allow up to 100 Mexican carriers to operate throughout the United States to
demonstrate the ability of Mexican carriers to operate safely beyond the
commercial zones.        FMCSA projected that through those 100 carriers,
540 Mexican trucks would participate in the project. Although FMCSA was of the
opinion that this level of participation would yield statistically valid results based
on the 989 Mexican carriers that applied for long-haul authority, 18 it did not
identify the minimum number of Mexican carriers required to provide statistically
valid results.

To compute a sample size for the number of Mexican carriers required for valid
results, FMCSA must define:

       • the universe of Mexico-domiciled carriers likely to travel beyond the
         commercial zones for which estimates are to be made;

       • the sampling unit for which measurements are to be made, such as drivers,
         vehicles, trucks, or carriers;

       • the attributes or variables to be estimated or compared, such as driver out-
         of-service rates, vehicle out-of-service rates, or crash rates;

       • the confidence level; and

       • the margin of error that these estimates should achieve.

18
     We could not substantiate that 989 carriers had applied for long-haul authority.
                                                                                                                        10


FMCSA will need to gather relevant data, such as the number of inspections,
trucks, crashes, out-of-service violations (driver and vehicle), and vehicle miles
traveled in order to make these computations. Should the minimum number of
carriers required to yield statistically valid results be greater than the number of
Mexican carriers that have participated to date, FMCSA would need to provide a
plan for achieving adequate participation in the demonstration project.

At the end of the first year of the project, only 29 carriers have participated in it,
2 of which subsequently withdrew. Based on our universe of 775 Mexican
carriers likely to engage in operations beyond the commercial zones, this level of
participation is not adequate to provide statistically valid findings that will allow
FMCSA to project the safety characteristics of project participants to the pool of
applicants for long-haul authority. We did not contact Mexican carriers to
determine why participation has been so low, but the Secretary stated that the
carriers’ uncertainty over whether the project would continue has been a major
factor. Also, FMCSA officials cited the cost of insurance as another deterrent.
Further, as detailed in exhibit C, litigation and pending actions may affect the
continuation of the demonstration project.

FMCSA had not met its projections for the number of trucks that would participate
in the project or the mileage that those trucks would accumulate in the United
States. FMCSA projected that 540 trucks would participate and accumulate
between 9 million and 18 million vehicle miles traveled. FMCSA indicated this
level of participation would be more than adequate to provide a statistically valid
picture of the operational safety of the Mexican carriers participating in the project
and, by extension, of other such carriers interested in operating in the United
States. However, during the first year, only 118 trucks19 participated, or
22 percent of the projection, and the miles traveled by those trucks were unknown.
FMCSA had not measured mileage—a key factor required for measuring crash
rates. Moreover, while the program is designed for long-haul operations, FMCSA
data show that only 11.5 percent of the trips traveled were beyond the commercial
zones. However, based on a judgmental review of GPS data, we believe that one
carrier was inaccurately recorded as going beyond the zone. This would reduce
the percentage of trips beyond the zone to 8.4 percent.

Although FMCSA provided evidence that 36 additional carriers could join the
project upon providing proof of financial responsibility, 20 only 1 carrier has joined
since July 17, 2008. 21 Until FMCSA defines the minimum number of participant

19
     This number represents the number of trucks inspected during the pre-authority safety audits. The actual number of
     trucks that participated will vary from this number as carriers are free to add or delete trucks throughout the project,
     but indications are that this number is a reasonable estimate of actual trucks that participated.
20
     Proof of financial responsibility is usually demonstrated through an insurance policy.
21
     Autotransportes de Distribucion Y Consolidacion SA de CV was granted provisional operating authority on
     October 8, 2008.
                                                                                   11


carriers and the assumptions behind that number, it cannot state that the
participation was sufficient to provide statistically reliable results.

Participants Were Not Representative of Current Applicants for
Long-Haul Authority In Terms Of Some Business Characteristics and
Prior Safety History and Were Subjected To a Vetting Process That
May Not Apply In the Future
To determine whether the demonstration project participants were representative
of all Mexican carriers likely to conduct long-haul operations beyond the
commercial zones, we examined the business characteristics and prior safety of
applicants for long-haul authority. FMCSA provided us with copies of 775 carrier
applications, which we used to identify carriers’ business characteristics. We
compared the characteristics of the participants to those of the remaining
applicants to detect any statistically significant differences between these groups.
We found that the participants were statistically different from the other applicants
for two of the seven characteristics we tested.

The two characteristics that were statistically significantly different were the form
of ownership and the type of registration sought. We found that the most likely
explanations for these differences were that none of the participants indicated they
were partnerships in contrast to 17 percent of the remaining applicants and
participants reported proportionately more carriers that applied for registration as a
motor common carrier of property or motor contract carrier of property and
proportionately less for registration as a motor private carrier. Exhibit A contains
more details on our testing.

Further, the 29 participants were not representative of the other applicants in terms
of prior safety history. Specifically, the participants’ driver and vehicle out-of-
service rates were statistically significantly lower than the remaining applicants
over the 4 fiscal years immediately preceding the demonstration project. In
addition, the participants had statistically significantly lower out-of-service rates
than other Mexican carriers that currently operate in the United States, including
commercial zone carriers (zone carriers) and grandfathered and certificated
carriers (G&C carriers), as shown in figures 1 and 2 on the following two pages.
                                                                                                         12


   Figure 1. Driver Out-of Service Rates by Comparison Groups,
                      Fiscal Years 2004-2007

                                8.00%

                                7.00%

                                6.00%
    Out-of-Service Rate




                                5.00%

                                4.00%

                                3.00%

                                2.00%

                                1.00%

                                0.00%
                                          FY04        FY05               FY06               FY07
                          US Carriers     6.61%      6.91%              7.32%               7.21%
                          Zone Carriers   1.56%      1.14%              1.26%               0.98%
                          G&C Carriers    0.98%      1.10%              1.38%               1.55%
                          Applicants      0.99%      0.82%              1.11%               1.14%
                          Participants    0.35%      0.23%              0.29%               0.23%


Source: OIG analysis of FMCSA’s data in the Motor Carrier Management Information System (MCMIS). Our analysis
of FY 2007 utilized data through September 5, 2007.
                                                                                                         13


  Figure 2. Vehicle Out-of Service Rates by Comparison Groups,
                      Fiscal Years 2004-2007

                               25.00%


                               20.00%
    Out-of-Service Rate




                               15.00%


                               10.00%


                                5.00%


                                0.00%
                                          FY04        FY05               FY06                FY07
                          US Carriers     23.07%     22.55%             22.32%             21.71%
                          Zone Carriers   21.99%     20.82%             21.30%             21.91%
                          G&C Carriers    20.78%     20.81%             21.84%             23.41%
                          Applicants      17.76%     17.80%             18.25%             18.74%
                          Participants    13.44%     13.16%             12.31%             11.02%


Source: OIG analysis of FMCSA’s data in the Motor Carrier Management Information System (MCMIS). Our analysis
of FY 2007 utilized data through September 5, 2007.
                                                                                                      14


Finally, demonstration project participants may differ from Mexican carriers likely
to conduct long-haul operations because participants were subjected to and passed
a criminal vetting process. In an effort to increase safety, FMCSA designed the
demonstration project to exclude Mexican carriers transporting hazardous
materials or passengers or those carriers with unresolved FMCSA enforcement
actions, open investigations, convictions, or other credible evidence of
wrongdoing. The vetting process eliminated from project consideration 138 of
778 Mexican carriers that applied for long-haul authority. FMCSA officials stated
that they have not decided whether all Mexican carriers that apply for long-haul
operating authority will be subjected to a criminal vetting process should the
border be opened. Accordingly, if criminal vetting procedures are not applied in
the future, the 138 carriers that were eliminated from project consideration may be
eligible to conduct long-haul operations, and the demonstration project
participants will differ from future carriers in that they were subjected to and
passed these vetting procedures.


The Department Will No Longer Rely on the Independent
Evaluation Panel To Determine Whether the Demonstration
Project Is Adversely Affecting Motor Carrier Safety
When the demonstration project was announced in the Federal Register in
May 2007, the Department stated its intention to provide for an independent
evaluation of the demonstration project through an Independent Evaluation Panel.
The panel was to work independent of other monitoring efforts and the
Department was to carefully consider the panel’s conclusions before making a
decision on a permanent full implementation of the NAFTA trucking provisions.
In June 2007,22 the Department clarified the specific standards that the panel
would use to evaluate the demonstration project. Our previous work 23 verified
that the Department had engaged former United States Representative Jim Kolbe,
former DOT Deputy Secretary Mortimer Downey, and former DOT Inspector
General Kenneth Mead to serve on the panel.

The Department provided resources with which the panel engaged experts to
conduct the evaluation for a 1-year period. Although the Department extended the
demonstration project for 2 additional years, it has not engaged the panel to
continue its assessment beyond the first year. Noting that an Independent
Evaluation Panel is not required by law, FMCSA stated that throughout the
duration of the demonstration project, it will continue to monitor all participating
Mexican carriers and conduct an internal evaluation of the effect the project has on
motor carrier safety in the United States. FMCSA also stated that it would rely on
22
     72 FR 31883 (June 8, 2007).
23
     OIG Report Number MH-2008-040, “Interim Report on NAFTA Cross-Border Trucking Demonstration Project,”
     March 10, 2008.
                                                                                                              15


special rules, operational policies, guidelines, and a safety monitoring system for
Mexican carriers that operate beyond the commercial zones, and periodic tracking
of Mexican carriers’ safety performance measures, such as out-of-service rates and
reportable crashes, to conduct this evaluation.

The panel issued its report to the Department on October 31, 2008. Many of the
panel’s conclusions mirror our own. For example, we agree with the panel’s
conclusion that the number of project participants fell far short of the projected
numbers. The panel also concluded, and we agree, that during the first year,
project participants had safety performance measures comparable to or better than
United States carriers, commercial zone carriers, and grandfathered and
certificated carriers and had no reportable crashes. However, we both concluded
that project participation was too low to make statistical projections from the
participants to the other Mexican carriers that are likely to seek long-haul authority
in the future. Further, the panel reported that the participants were not
significantly different from the universe of applicants in terms of business
characteristics, which was similar to our results for five of the seven
characteristics we reviewed.

Specifically, the panel reported the following.

       • Pre-authorization safety audits were comprehensive and adhered to
         applicable regulations and statutory requirements, 24 but FMCSA did not
         implement its statement that a violation of any of the 11 critical violations
         would merit failure of the safety audit as stated in FMCSA Federal Register
         notice of June 8, 2007. (See page 45 for FMCSA’s response.)

       • FMCSA implemented site-specific plans with CBP, honored its
         commitment to check every truck every time, and maintained inspection
         equipment and capacity to conduct meaningful truck inspections of the
         demonstration project trucks.

       • FMCSA initiated a quality control plan in March 2008 to provide assurance
         that all Mexican trucks and drivers were checked each time they crossed
         into the United States. 25

       • FMCSA checked the English language skills of Mexican drivers in the
         demonstration project in accordance with protocols.


24
     We examined the PASA process during our initial work on the demonstration project as discussed in OIG Report
     Number MH-2007-065, “Issues Pertaining to the Proposed NAFTA Cross-Border Trucking Demonstration Project,”
     September 6, 2007.
25
     The panel verified that FMCSA had implemented a quality control plan but did not independently verify FMCSA’s
     results with CBP.
                                                                                                                   16


       • All 29 Mexican carriers obtained the required minimum $750,000 in
         insurance before they received long-haul authority. However, one carrier
         allowed its insurance to lapse and subsequently operated illegally in the
         United States without insurance or operating authority.

       • States received training and guidance from FMCSA on English language
         proficiency assessment and requirements for placing Mexican vehicles out
         of service.

       • Far more Mexican carriers were operating legally beyond the border
         commercial zones than were in the demonstration project, including carriers
         operating within specific states or anywhere in the United States under
         pre-NAFTA provisions, and within border commercial zones. Vehicle out-
         of-service rates for these carriers were higher than the rate for
         demonstration project carriers. Only the project participants were subject to
         the pre-authorization safety audit.

       • The Mexican drug and alcohol test collection system was at least equivalent
         to U.S. requirements in most respects. 26

       •    Mexico was making progress in improving inspection and accident
            databases. 27

It is our opinion that by disengaging the panel, the Department has forgone a
valuable independent assessment of the impacts of the demonstration project on
motor carrier safety in the United States, and will no longer have input from the
panel when making decisions about cross-border trucking at the close of the
demonstration project.


FMCSA Took Actions Intended To Ensure Carriers’ Compliance
With Safety Rules, But Its Quality Control Measure To Ensure
That All Trucks Were Checked at the Border Was Not Adequate
In our March 2008 report, we identified Federal and state monitoring and
enforcement activities that FMCSA developed to ensure that demonstration
project participants were complying with safety laws and regulations. The most
important of those activities was a plan to check every Mexican truck every time it
crossed the border into the United States. The checks are important because they
verify that drivers are properly licensed and trucks have undergone recent
inspections before entering the United States. Although FMCSA is conducting

26
     Our work on Mexico’s drug and alcohol collection system will be reported in our next NAFTA annual report.
27
     We will report on the status of Mexico’s inspection and accident databases in our next NAFTA annual report.
                                                                                  17


checks of Mexican carriers as they cross the border, a key quality control plan
designed to provide assurance that all trucks are checked is not adequate because it
relies on incomplete data. Based on our analyses, other monitoring and
enforcement activities are working well, although the current agreement for
Global Positioning System (GPS) services to track demonstration project trucks
has limitations.

FMCSA’s Quality Control Plan Could Not Provide Assurance That All
Trucks Crossing the Border Were Checked
FMCSA stated that during the demonstration project, it would check every truck
and driver that crossed into the United States from Mexico to verify that the driver
had a valid license and was proficient in the English language, and that every truck
showed evidence of recently passing a Level I North American Safety Inspection.
Our site visits to 11 commercial border crossings (listed in exhibit D) verified that
FMCSA implemented site-specific plans to identify demonstration project trucks
at those crossings and was conducting the required checks. Additionally, FMCSA
was recording the results of those checks, although the method it used was
inefficient and contributed to missing or duplicated entries. In order to provide
assurance that FMCSA had checked every truck and driver every time, FMCSA
implemented a quality control plan; however, that plan is not adequate because it
relies on incomplete data.

FMCSA’s Implementation of Site-Specific Plans. During each of our 11 site
visits, we examined how FMCSA had implemented the site-specific plan to
determine whether the procedures used reduced the risk that trucks would be
missed. In our judgment, procedures at nine crossings were effective in reducing
those risks. To its credit, FMCSA took immediate corrective action at the Eagle
Pass, Texas, crossing where this risk was significant. At the Tecate, California,
crossing, risk was mitigated by the fact that very few participant crossings were
occurring and because planned improvements to the crossing were to be in place
by August 2008. Those improvements have been delayed until early 2009, but the
risk that trucks will be missed will become elevated if truck crossings increase.

FMCSA’s Recording of Checks Performed at the Border. We found that
FMCSA was accurately recording information about checks performed on
demonstration project trucks and drivers, but the process used to forward the
results to FMCSA Headquarters was inefficient.             For each entry of a
demonstration project truck, border inspectors prepared an inspection report and
another document providing evidence that the driver’s license was checked for
validity, the driver was tested for English language proficiency, and the truck had
evidence of passing a recent safety inspection or that a new inspection was
performed. That information was then copied to a spreadsheet and forwarded to
FMCSA Headquarters for consolidation.
                                                                                                                     18


This inefficient method of recording the results of checks performed on trucks and
drivers contributed to duplicate and missing entries. For example, we identified at
least 111 border inspections conducted on Trinity vehicles at Eagle Pass, Texas,
that were not recorded on the spreadsheet, meaning that nearly 9 percent of
Trinity’s crossing records were omitted. In July 2008, FMCSA revised its method
to record checks performed on trucks and drivers and added the missing Trinity
crossing records to the consolidated spreadsheet. We have not conducted audit
procedures on FMCSA’s new method of recording checks that are performed at
the border crossings.

FMCSA’s Quality Control Plan. FMCSA had no assurance that every
demonstration truck was checked every time because its quality control plan relied
on incomplete data. FMCSA’s quality control plan relies on truck crossing data
from CBP and states that a 10-percent random sample of CBP data will be
reconciled against FMCSA data. Through September 5, 2008, FMCSA recorded
12,516 crossings of Mexican trucks participating in the demonstration project.
However, our analysis found that CBP recorded fewer truck crossings than
FMCSA.

From September 6, 2007, through February 29, 2008, the early stage of FMCSA’s
quality control plan, CBP recorded 2,896 truck crossings of project carriers but
FMCSA recorded 3,939 truck crossings. This difference occurred partly because
CBP did not record truck crossings for empty trucks or crossings for participant
carriers that did not have a standard carrier alpha code. 28 For example, CBP did
not record any crossings for 7 of the 17 Mexican carriers that had participated in
the demonstration project during that period. Additionally, CBP data did not
distinguish between different border crossings in the same city and combined
crossing data for the Columbia Solidarity Bridge with the World Trade Bridge,
both located in Laredo, Texas. FMCSA’s reconciliation was therefore restricted to
certain crossings and carriers where CBP did record data. In our opinion, this
methodology was neither random nor adequate to document the extent to which
FMCSA was checking every truck every time.

FMCSA stated that in light of the unanticipated deficiencies of CBP data, it had
supplemented its quality control plan with additional assurance measures.
FMCSA stated that it was using GPS technology to verify that a sample of
demonstration project trucks operating in the United States were checked when
they crossed the border. However, until July 1, 2008, FMCSA had not been
recording vehicle specific information during the checks that would facilitate this
verification. We applaud FMCSA’s efforts to supplement its quality control plan,
but in light of FMCSA’s belief that it cannot obtain complete border crossing data
from CBP, a new quality control plan is warranted.
28
     A standard carrier alpha code is a unique two- to four-letter code used to identify transportation companies.
                                                                                                                 19


To its credit, FMCSA implemented other activities to ensure that participants are
complying with safety laws and regulations when trucks travel beyond the border.
Those activities include training state and local law enforcement on demonstration
project requirements, using GPS to track trucks, reporting United States
convictions of Mexican drivers to a centralized database, and using computer
systems to monitor compliance with insurance requirements and identify serious
infractions of safety laws.

FMCSA Conducted Significant Outreach to State and Local Law
Enforcement Personnel
FMCSA distributed educational brochures related to the demonstration project to
law enforcement personnel across the country and made formal training available.
In conjunction with the IACP, FMCSA distributed over 1 million educational
brochures related to the demonstration project subjects and trained over 1,800 state
and local law enforcement personnel. The training covered foreign commercial
motor vehicle awareness, operating authority, cabotage, and English language
proficiency related to the demonstration project.

FMCSA and IACP used a train-the-trainer approach and provided us with a list of
158 state and local law enforcement personnel from 47 states who were trained as
trainers. In turn, as of July 31, 2008, those trainers trained an additional
1,709 state and local law enforcement personnel during 62 separate classes in
16 states. We contacted a limited number of training attendees, who stated that the
training was beneficial, particularly in providing contact numbers to obtain
guidance should a questionable situation develop. However, FMCSA’s list
indicated that law enforcement personnel in 34 states 29 have not yet taken
advantage of this training.

According to FMCSA, 1.1 million educational brochures relating to operating
authority and cabotage and 370,000 brochures announcing that foreign motor
vehicle awareness training was available were distributed to state and local law
enforcement groups throughout the country. FMCSA also distributed about
40,000 English language proficiency brochures to Mexican carriers at inspection
locations. These educational brochures can be accessed on FMCSA’s website.

FMCSA’s Global Positioning System to Monitor Demonstration Project
Trucks Had Limited Capabilities
In September 2007, just after the demonstration project began, FMCSA announced
that it would enhance its monitoring and enforcement capabilities for
demonstration project participants through the use of GPS technology, a measure

29
     Our analysis included the 48 contiguous United States, Alaska, and the District of Columbia. Hawaii was excluded
     because Mexican trucks would not operate there.
                                                                                  20


not required by law.          In November 2007, FMCSA entered into a
$500,000 agreement with the Department of the Army to obtain and install a GPS
device on all trucks intended for use in the demonstration project and obtain
access to a GPS tracking system owned by Qualcomm, Inc. According to the
2007 announcement, GPS tracking would allow FMCSA to identify indications of
cabotage and hours-of-service violations as well as identify vehicle positions and
the date and time of international and state crossings. FMCSA provided evidence
that it was monitoring trucks for potential violations of cabotage and hours-of-
service violations using GPS.

In our opinion, the GPS services that FMCSA obtained had limited capabilities.
The agreement with the Department of the Army did not include a geo-fencing
feature, which could alert FMCSA of a truck’s entrance into a border crossing or
exit from a commercial zone. Although GPS tracking can be used to determine
when a truck approaches the border, our observations at the border crossings and
our use of the GPS system indicated that this would require regular monitoring of
trucks as they are in route towards the border, and success using this method is
largely dependent on the frequency of location efforts commonly called pings. As
the frequency of the pings increases, so does the ability to identify the current
location and route taken by a truck. FMCSA indicated that random pings
averaging 30 minutes apart are sent from each truck; however, we saw wide
variations in the frequency of pings from every few minutes to hours apart.

Another limitation is that the current agreement with the Department of the Army
does not include calculation of the number of miles driven by demonstration
project trucks in the United States. However, the agreement does allow GPS data
to be used to identify the approximate routes demonstration project trucks travel in
the United States. In turn, those routes can be entered into a mapping program,
such as Google Maps, to calculate the approximate mileage a truck travels.

The current GPS agreement requires that carriers present their vehicles in the
United States for installation. In our opinion, this requirement delayed installation
of the GPS devices and FMCSA’s use of the system. Installation lagged behind
obtaining provisional authority by an average of 61 days. During this lag, carriers
were allowed to conduct operations in the United States but FMCSA was not able
to use the GPS system to track the trucks.

As of August 29, 2008, 74 of 106 Mexican trucks identified for use by the
27 active carriers had been fitted with GPS devices. By October 17, 2008,
installation of GPS devices was complete for 90 percent of the vehicles identified
by active carriers (88 of 98 vehicles). However, the devices installed on the trucks
were not suitable for tracking truck mileage and new devices that could
accomplish this task would be too costly. FMCSA hopes to resolve some of these
issues when the present agreement expires in March 2009 and a new contract is
                                                                                                       21


negotiated. As this project moves forward, FMCSA must determine whether the
cost of continuing the use of GPS is worth the benefits that will be provided,
before it negotiates a new contract.


FMCSA Took Steps To Ensure That All Convictions of Mexican
Drivers Were Recorded In the Mexican Conviction Database
In our 2007 annual NAFTA follow-up audit, 30 we found that known problems
with data recorded in the Mexican Conviction Database (MCDB, formerly known
as the 52nd State System) remained. For example, the number of Mexican
commercial driver’s license convictions that Texas and New Mexico reported in
the MCDB showed a dramatic decline in the beginning of 2006 when compared to
prior months. The MCDB also showed notable differences between the total
number of Arizona, California, and New Mexico reported convictions versus
Texas reported convictions when comparisons were made. This required FMCSA
to work with the four border states to develop and implement corrective action
plans to solve these problems.

We verified that Texas, California, and New Mexico completed their corrective
actions. Arizona was to have completed its testing of a new electronic system to
identify convictions involving a commercial driver’s license holder by
September 30, 2008. Additionally, FMCSA implemented a plan to have states
review and verify submissions of convictions to the MCDB on a quarterly basis.
This action successfully identified a problem with New Mexico’s conviction data
during the first quarter of 2008. FMCSA should continue to work with the states
to review convictions submitted to the MCDB and ensure that Arizona completes
its corrective action plan. We will follow-up on this issue in our annual audit
report.

FMCSA’s Licensing and Insurance and Mexican Monitoring Systems
Were Working Well To Monitor Carrier Insurance Coverage and
Initiate Any Needed Enforcement Actions

Our examination of information maintained in FMCSA’s licensing and insurance
system and our direct contact with insurance companies confirmed that all project
participants had the required $750,000 in bodily injury and property damage
liability insurance on file before they were granted provisional operating authority.
In addition, we found that the Mexican monitoring system was tracking insurance
expiration dates and sending out appropriate warning letters to project participants.
For example, when one demonstration project carrier did not pay its insurance
premium, its insurance coverage was terminated and FMCSA revoked its

30
     OIG Report Number MH-2007-062, “Follow-up Audit on the Implementation of the North American Free Trade
     Agreement’s Cross-Border Trucking Provisions,” August 6, 2007.
                                                                                  22


provisional operating authority. Following the revocation, the carrier continued to
operate in the United States, which resulted in the Mexican monitoring system
triggering an enforcement action. The carrier was fined and after obtaining
insurance was readmitted to the demonstration project.

Trinity Withdrew From the Project To Minimize Business
Disruptions and Its Prior Out-of-Service Rates Were Lower Than
United States Carriers
In response to a congressional question for the record during a March 2008
hearing, we examined the circumstances of Trinity’s withdrawal from the
demonstration project and determined whether claims that Trinity was admitted to
the project despite being an unsafe carrier could be substantiated. According to
FMCSA’s conversations with Trinity officials and our review of Trinity’s letter
requesting withdrawal from the project, Trinity withdrew to minimize disruptions
to its operations. According to FMCSA, after participating in the demonstration
project for 79 days, Trinity requested on its own initiative to withdraw from the
project to minimize delays associated with the intense inspection process at the
border. In addition FMCSA stated that Trinity’s out-of-service rates were lower
than the rates of United States carriers. Trinity did not respond to our request for
information on its withdrawal; nonetheless, we used FMCSA data to substantiate
FMCSA’s statements regarding Trinity’s withdrawal and prior safety
performance.

During the project, Trinity did not conduct operations outside the commercial zone
and it returned to commercial zone operating authority upon withdrawal from the
project. Our review of FMCSA data indicated that the demonstration project
inspection process was intensive and may have been disruptive to Trinity’s
operations. During the 79 days that Trinity was in the demonstration project,
Trinity underwent an average of 16 truck inspections daily at the border. However
during the period of the first year of the project when Trinity did not participate,
Trinity trucks were inspected on average less than once daily.

During its participation in the demonstration project, we calculated that Trinity
had a driver out-of-service rate of 0.24 percent and a vehicle out-of-service rate of
10.36 percent. These rates were comparable to Trinity’s previous year’s rates of
0.16 percent and 11.17 percent, respectively, when United States carriers averaged
a driver out-of-service rate of 7.22 percent and a vehicle out-of-service rate of
21.74 percent. This confirmed FMCSA’s assertion that Trinity’s out-of-service
rates were lower than that of United States carriers. Our review of MCMIS crash
data did not locate any crashes involving Trinity trucks.

Claims by the Owner-Operator Independent Drivers Association that Trinity
received over 112 violations per truck during the year prior to the demonstration
                                                                                                           23


project 31 were correct but did not note that Trinity used at least 106 trailers in
addition to 10 motorized vehicles. Our analysis showed that when trailers were
included in the analysis, Trinity averaged 3.4 violations per motorized vehicle and
8.3 violations per trailer. In addition, only 74 of the 1,124 violations were out-of-
service violations. Further, Trinity was inspected much more frequently as a
commercial zone carrier than United States carriers of similar fleet size (9 to 11
motorized vehicles). In fact, during the year prior to the demonstration project,
Trinity was inspected 611 times while U.S. carriers of similar size (9 to 11
motorized vehicles) were inspected on average 8 times.

Trinity’s withdrawal did not significantly impact the safety performance exhibited
during the first year of the demonstration project. If Trinity had continued to
participate in the demonstration project and maintained the same levels of
participation and performance, the driver out-of-service rate would have been
lowered by 0.06 percentage points and the vehicle out-of-service rate would have
increased by 0.88 percentage points. As shown in table 2 below, even if Trinity
had remained in the demonstration project, the participant carriers' out-of-service
rates would have been significantly lower than those of United States carriers.


     Table 2. Impact of Trinity’s Withdrawal on the Demonstration
                     Project Out-of-Service Rates
               Versus U.S. Carriers Out-of-Service Rates
               Rates Reviewed                                                     Percentage
               Driver Out-of-Service Rates
               Demonstration Project Participants                                      0.46
               Estimate, if Trinity had not withdrawn                                  0.39
               U.S. Carriers                                                           6.94
               Vehicle Out-of-Service Rates
               Demonstration Project Participants                                       8.29
               Estimate, if Trinity had not withdrawn                                  9.17
               U.S. Carriers                                                           21.72
           Source: OIG analysis of FMCSA’s data in the Motor Carrier Management Information System.

Finally, we did not find evidence that other demonstration project participants had
poor safety histories before being admitted into the project, based on FMCSA’s
data on the operations of these carriers in the United States.




31
     OOIDA reviewed Trinity’s performance during the period September 21, 2006 through September 21, 2007. Our
     analysis also covered this period. We refer to this period as the year prior to the demonstration project.
                                                                                 24


RECOMMENDATIONS
We recommend that the FMCSA Administrator:

1. Demonstrate that the project meets congressional requirements that the
   demonstration project yield statistically valid results by doing the following.

      a. Determine the minimum number of Mexican carriers that must
         participate in the demonstration project necessary to yield statistically
         valid results. In order to calculate this number, FMCSA must address,
         at a minimum:

          • the definition of the universe of Mexican carriers likely to travel
            beyond the commercial zones for which estimates are to be made;

          • the sampling unit for which measurements are to be made, such as
            drivers, vehicles, trucks, or carriers;

          • the attributes or variables to be estimated or compared, such as
            driver out-of-service rates, vehicle out-of-service rates, or crash
            rates;

          • the confidence level; and

          • the margin of error that these estimates should achieve.

      b. Develop a plan for achieving an adequate level of participation if the
         current number of Mexican carriers participating in the project is less
         than the number of carriers necessary to yield statistically valid results.

      c. Provide to the OIG and appropriate congressional committees, the
         calculated minimum sample size, the methodology used to calculate the
         minimum sample size, and the plan to achieve adequate participation of
         Mexican carriers in the demonstration project as needed.

2. Obtain assurance that every demonstration truck is checked every time it
   crosses into the United States by:

      a. Developing and implementing a new quality control plan.

      b. Providing to OIG and appropriate congressional committees a complete
         description of this plan and the procedures used to implement the plan.

3. Conduct a cost/benefit analysis to determine whether renewing GPS services
   provides benefits that outweigh the costs.
                                                                                 25


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FMCSA with a draft of this report on December 17, 2008. On
January 16, 2009, FMCSA provided us with formal comments, which are
contained in their entirety in the appendix. FMCSA stated that in large part, it
agrees with our recommendations except the recommendation to conduct a
cost/benefit analysis to determine whether renewing GPS services provides
benefits that outweigh the costs. FMCSA also disagreed with our assumption that
the applications submitted by Mexican carriers for long-haul authority was equal
to the universe of carriers likely to engage in long-haul operations in the future.
FMCSA offered additional comments to clarify statements in the report,
particularly on our examination of representativeness of the project participants.
FMCSA comments on the recommendations and our response are summarized
below.

Recommendation 1.a. In response to the recommendation that FMCSA
determine the minimum number of Mexican carriers that must participate in the
demonstration project necessary to yield statistically valid results, FMCSA
concurred with the recommendation, but does not agree with our assumption of
the universe of carriers likely to engage in long-haul operations in the future.
FMCSA believes that the number likely to engage in future operations should be
lower than the 775 carriers used in our report, but it did not provide its own
assumption of the number of carriers or a target date for doing so.

Response.      We consider FMCSA’s comments to be responsive.                   Our
recommendation requires FMCSA to determine the minimum number of Mexican
carriers that must participate in the demonstration project to yield statistically
valid results. One factor involved in this determination will be estimating the
number of Mexican carriers likely to conduct long-haul operations in the future.
In our view, a reasonable estimate of the number of likely carriers should consider,
at a minimum, applicants who had not previously applied but who may elect to do
so in the future; applicants who did not fully complete the application process but
who might decide to do so in the future, and applicants who completed the
application process but declined to participate in the demonstration project.

We recognize that the number of Mexican carriers likely to conduct long-haul
operations in the future may be more or less than the assumption presented in our
report. Our objectives, as set by Congress, required us to identify a universe of
Mexican carriers likely to engage in long-haul operations in the future, and in our
opinion, the best indication of that universe is the applications submitted by
Mexican carriers for this authority. FMCSA makes a valid point that it is
reasonable to exclude from this estimate those applicants unable to pass the safety
                                                                                  26


review or the vetting requirement. However, FMCSA’s comments do not consider
the possibility that some carriers not included in the demonstration project would
be likely to operate long-haul in the future. For instance, FMCSA stated that
approximately 340 carriers were dismissed because their applications were
incomplete, but these carriers may submit complete applications in the future,
should the border open under NAFTA rules. In addition, FMCSA should also
consider that 352 grandfathered and certificated carriers were inspected in the
United States during the first year of the demonstration project, but 128 have not
yet submitted an application for long-haul authority. In order to keep operating
should the border open under NAFTA rules, these carriers will be required to
complete the application process. 32

FMCSA also provided comments on our examination of whether the
demonstration project participants were representative of Mexican carriers likely
to conduct long-haul operation in the future. FMCSA stated that we failed to
indicate how certain non-representative business characteristics of the participants
were linked to safety. Our objective was not to demonstrate a link to safety, but to
identify whether the participants were statistically representative of our defined
universe. Similarly, our concerns with the vetting process used as part of the
selection process for the demonstration project were on its effect on
representativeness of the participants if the process is not used in the future.
FMCSA stated that it has no current plans to alter the current vetting process
should the border be opened.

We request that FMCSA provide a target date by which it will determine the
minimum number of Mexican carriers that must participate in the demonstration
project necessary to yield statistically valid results.

Recommendation 1.b. FMCSA concurred with the recommendation to develop a
plan for achieving an adequate level of participation if the number currently
participating in the demonstration project is less than the number of carriers
necessary to yield statistically valid results. FMCSA stated that while it can
establish a plan to encourage participation, it cannot guarantee participation in the
demonstration project.

Response. We consider FMCSA’s comments to be responsive. We request that
FMCSA provide a target date for completion of this action.

Recommendation 1.c. FMCSA concurred with the recommendation to provide to
the OIG and appropriate congressional committees the calculated minimum
sample size and methodology used for the calculation and a plan to achieve
adequate participation in the demonstration project as needed.

32
     67 FR 12702-12755 (March 19, 2002).
                                                                                  27


Response. We consider FMCSA’s comments to be responsive. We request that
FMCSA provide a target date for completion of this action.

Recommendation 2.a. FMCSA concurred with the recommendation to develop
and implement a new quality control plan to obtain assurance that each
demonstration project truck is checked each time it crosses into the United States.

Response. We consider FMCSA’s comments to be responsive. FMCSA
acknowledged that its information on the number of border crossings exceeds the
number of crossings recorded by the CBP. FMCSA also stated that it is validating
99 percent of CBP’s crossing data, but does not identify in its response the percent
of crossings that FMCSA is recording that cannot be validated by CBP data.
FMCSA stated that it has replaced the manual recording of crossing information
with an automated system and will utilize GPS data in its revised plan, which may
address this shortfall. We request that FMCSA provide a target date for
completion of this action.

Recommendation 2.b. FMCSA concurred with the recommendation to provide a
copy of its revised quality control plan to the OIG and appropriate congressional
committees.

Response. We consider FMCSA’s comments to be responsive. We request that
FMCSA provide a target date for completion of this action.

Recommendation 3. FMCSA did not concur with the recommendation to
conduct a cost/benefit analysis to determine whether renewing GPS services
provides benefits that outweigh the costs. FMCSA stated that it determined that
including enhanced features in a new contract for GPS services was not justified
because the current system can, through data analysis, identify potential cabotage
and hour-of-service violations and an estimate of mileage. FMCSA also stated
that it has expanded the utility of GPS data to its new quality control plan.

Response. Although FMCSA did not concur with this recommendation, FMCSA
did provide comments that discuss how retaining GPS services would provide
additional value relative to its revised quality control plan. We do not dispute that
the current GPS service provides data that are useful in identifying potential
cabotage and hour-of-service violations, but we are concerned that the benefits of
this service may not outweigh the financial cost of the GPS services and the effort
that FMCSA must expend to analyze the data. Expanding the use of GPS data to
enhance the quality control plan may provide additional benefits that justify the
cost. Because we consider FMCSA’s check of Mexican carriers at the border to
be a primary control to ensure the safety of Mexican trucks and drivers entering
the United States, we agree that FMCSA may substitute a revised quality control
                                                                              28


plan in its response to recommendations 2.a. and 2.b. that provides evidence that
GPS data are a critical element of the plan in lieu of a cost/benefit analysis.


ACTIONS REQUIRED
We consider FMCSA’s planned actions reasonable. However, in accordance with
Department of Transportation Order 8000.1C, we request that FMCSA provide us
with the target dates for the completion of recommendations 1 and 2 within
30 calendar days of the date of this report.

We appreciate the courtesies and cooperation of FMCSA representatives, states,
and other organizations contacted during this audit. If you have any questions
concerning this report, please call me at (202) 366-5630 or Kerry Barras, the
Program Director, at (817) 978-3318.


                                       #
                                                                                                        29




EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from April through October 2008, with field
site visits to the southern border crossings occurring from April through
June 2008. We conducted this audit in accordance with Generally Accepted
Government Auditing Standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our work included a review of documentation from various sources and
interviews with FMCSA and state personnel, the IACP, and the CBP. We also
met frequently with members of the Independent Evaluation Panel. We observed
FMCSA, CBP, and state procedures to identify and check commercial vehicles
and drivers participating in the demonstration project, including North American
Standard inspections conducted at the southern border.

To determine whether the demonstration project consisted of a representative and
adequate sample, we obtained copies of 775 applications of Mexican carriers for
long-haul authority that were made available to us by October 7, 2008. We used
those applications to define the universe of Mexico-domiciled carriers likely to
engage in long-haul operations in the United States. We recorded certain data
submitted on those applications, and conducted statistical testing on seven
business characteristics using SPSS statistical software to determine if the
characteristics reported by the 29 demonstration project participants showed
statistically significant differences from the remaining 746 applicants. All testing
was done at the 0.05 significance level. Table 3 summarizes the types of statistical
tests we conducted and the results.
   Table 3. Results of Statistical Testing Comparing Business Characteristics of Project
                             Participants to All Other Applicants
                                                                  Statistically Significant
 Characteristics Tested                       Tests Used        Difference Between Groups
 Form of business                                         Chi-square                              Yes
 Currently operates in the United States                  Chi-square                              No
 Number of vehicles owned by mean                            T-Test                               No
 Number of trailers by mean                                  T-Test                               No
 Number of drivers by mean                                   T-Test                               No
 Type of registration sought                              Chi-square                              Yes
 Hazmat carrier                                           Chi-square                              No
Source: OIG analysis of applications submitted by 775 Mexican carriers for long-haul authority.




Exhibit A. Scope and Methodology
                                                                                          30


We enhanced data submitted on the 775 applications with additional information
FMCSA supplied on the status of the vetting process on the carriers and
information on missing DOT numbers found in the Safety and Fitness Electronic
Records (SAFER) system. We used a list provided by FMCSA to identify
grandfathered and certificated carriers, and FMCSA’s Licensing & Insurance
database to identify Mexican commercial zone carriers. We adjusted certain
groups to minimize the effects of carriers that were identified as being in multiple
carrier groups. We eliminated demonstration project participants from the group
of grandfathered and certificated carriers and eliminated grandfathered and
certificated carriers and all applicants from the group of commercial zone carriers.
We obtained all inspection data for FY 2004 through FY 2008 from MCMIS. We
used the data to calculate overall out-of-service rates for each of the groups.

We compared the prior out-of-service rates (FYs 2004-2007, through September 5,
2007) of the participants to zone carriers, certificated and grandfathered carriers,
all other applicants, and U.S. carriers to determine whether there was any adverse
effect regarding safety and to determine whether the participants’ out-of-service
rates were statistically significantly different from all other applicants as well as
other comparison groups. Using SPSS statistical software, we identified, by each
carrier group, the total number of driver inspections, out-of-service driver
inspections, vehicle inspections, and out-of-service vehicle inspections and
calculated an overall driver and vehicle out-of-service rate for each of the groups.
We examined whether there were statistically significant differences between
groups. Our results are indicated in table 4.
              Table 4. Statistically Significant Difference Between Participants
                                   and Other Carrier Groups
                     From October 1, 2003, Through September 5, 2007
                                                    Statistically             Statistically
                                                    Significant               Significant
                                      Driver OOS    Difference Vehicle        Difference in
                                      Rate          in Driver     OOS Rate    Vehicle OOS
Carrier Group                         (percent)     OOS Rate      (percent)   Rate
Participants                               0.3           NA          12.2          NA
All other applicants                       1.0           Yes         18.2          Yes
Grandfathered & certificated carriers      1.3           Yes         21.7          Yes
OP-2 zone carriers                         1.2           Yes         21.4          Yes
U.S. carriers                              7.1           Yes         22.3          Yes
Source: OIG analysis of MCMIS data

We also compared the prior out-of-service rates of applicants that were vetted out
of the demonstration project to all other applicants to determine whether those
carriers that were vetted out were statistically different safetywise. Using the
same methodology, our results are indicated in table 5.



Exhibit A. Scope and Methodology
                                                                                               31


             Table 5. Statistically Significant Difference Between Carrier Groups
                       From October 1, 2003, Through September 5, 2007
                                                      Statistically                Statistically
                                                      Significant                  Significant
                                                      Difference Vehicle OOS       Difference
                                     Driver OOS       in Driver     Rate           in Vehicle
Carrier Group                        Rate (percent)   OOS Rate      (percent)      OOS Rate
Applicants vetted out of the project        0.7                          15.5
Applicants not vetted out of the                           Yes                         Yes
project                                     1.1                          19.1
Source: OIG analysis of MCMIS data

We also compared the driver and vehicle out-of-service rates for these groups
during the first year of the demonstration project. Our results are presented in
table 6.

              Table 6. Statistically Significant Difference Between Carrier Groups
                       From September 6, 2007, Through September 5, 2008


                                                       Statistically                 Statistically
                                                       Significant                   Significant
                                        Driver OOS     Difference      Vehicle       Difference
                                        Rate           in Driver       OOS Rate      in Vehicle
 Carrier Group                          (percent)      OOS Rate        (percent)     OOS Rate
 Applicants vetted out of the project        2.0                           16.5
 Applicants not vetted out of the                          No                            Yes
 project                                     1.8                          18.6
Source: OIG analysis of MCMIS data

Finally, we conducted statistical analyses of the safety performance exhibited
during the first year of the demonstration project from September 6, 2007, through
September 5, 2008 and compared the performance of the participants to other
groups of Mexican carriers and U.S. carriers to determine whether there was any
adverse effect regarding safety and whether the participants’ out-of-service rates
were statistically significantly different from all other applicants as well as other
comparison groups. Using the same methodology, our results are indicated in
table 7.




Exhibit A. Scope and Methodology
                                                                                               32




             Table 7. Statistically Significant Difference Between Participants
                                  and Other Carrier Groups
                    From September 6, 2007, Through September 5, 2008
                                                   Statistically               Statistically
                                                   Significant                 Significant
                                                   Difference                  Difference
                                                   in Driver       Vehicle     in Vehicle
                                     Driver OOS    OOS Rate        OOS         OOS Rate
                                     Rate          From            Rate        From
  Carrier Group                      (percent)     Participants    (percent)   Participants
 Participants                            0.5            NA            8.3           NA
 All other applicants                    2.4            Yes          19.0           Yes
 Grandfathered & certificated
 carriers                                3.8           Yes           24.2          Yes
 OP-2 zone carriers                      1.1           Yes           21.6          Yes
 U.S. carriers                           6.9           Yes           21.7          Yes
Source: OIG analysis of MCMIS data

We used the out-of-service rates calculated for the demonstration project
participants during the first year of the project to calculate the sample size needed
to estimate vehicle and driver out-of-service rates for all 775 applicants in our
universe. Using a confidence level of 95 percent, a margin of error of +/-
5 percent, and an expected vehicle out-of-service rate of <= 10 percent, we
calculated that 118 Mexican carriers must participate in the demonstration project
to provide statistically reliable results.

We met frequently with members of the Independent Evaluation Panel to
determine whether the Department had established sufficient mechanisms to
assess whether the demonstration project was adversely affecting motor carrier
safety. Those meetings were held to ascertain whether the Department had
provided sufficient resources and information to the panel to facilitate the panel’s
analysis. We conducted follow-up work with FMCSA to determine what
mechanism would be used in place of the panel to determine adverse safety
effects.

To assess whether Federal and state monitoring and enforcement activities were
sufficient to ensure that participants in the demonstration project complied with all
applicable laws and regulations, we conducted various procedures based on each
mechanism. During site visits to border crossings, we observed procedures that
FMCSA, CBP, and state personnel used to identify and inspect commercial
vehicles and drivers participating in the demonstration project. We conducted a
walk-through of implementation plan procedures and observed the identification
and inspection of demonstration project vehicles and drivers at each border
crossing whenever possible. We interviewed FMCSA, CBP, and state personnel
at the commercial border crossings to gauge their understanding of procedures

Exhibit A. Scope and Methodology
                                                                           33


adopted at each border crossing and resolve differences we observed in the
implementation plan and actual procedures used by FMCSA and CBP personnel.
Using a statistical sample, we tested crossing records for accuracy and
completeness at the 10 commercial truck border crossings that participants had
used. Our testing provided the results presented in table 8.




Exhibit A. Scope and Methodology
                                                                                34




           Table 8. Results from Testing Crossing Records
                   (Confidence Level is 90 Percent)

                                             Lower                   Upper
 Records tested from a                     Confidence     Best     Confidence
 universe of 6,246 Records   Sample Size     Level      Estimate     Level
 Estimated proportion of
 records with supporting
 documents                                   97.8%       99.1%      100.0%
                                 331
 Estimated total number of
 records with supporting
 documents                                   6,109       6,187       6,243
 Estimated proportion of
 records with accurate
 supporting documents                        92.7%       95.2%       97.7%
                                 328
 Estimated total number of
 records with accurate
 supporting documents                        5,733       5,889       6,045
 Estimated proportion of
 supporting documents with
 corresponding record                        91.7%       94.5%       97.2%
                                 232
 Estimated number of
 supporting documents with
 corresponding record                        5,737       5,910       6,083
 Estimated proportion of
 supporting documents with
 accurate corresponding
 record                                      94.8%       96.9%       99.0%
                                 222
 Estimated number of
 supporting documents with
 accurate corresponding
 record                                      5,597       5,720       5,842
 Duplicate records tested                    Lower                   Upper
 from a universe of 104      Sample Size   Confidence     Best     Confidence
 records                                     Level      Estimate     Level
 Estimated proportion of
 duplicate records                          100.0%      100.0%      100.0%
                                 55
 Estimated total number of
 duplicate records                            104         104         104



We judgmentally supplemented our testing of the completeness of FMCSA’s
crossing records by identifying all inspections listed in FMCSA’s MCMIS for
Trinity during the period that Trinity was participating in the demonstration
project. Because FMCSA policy requires only that a demonstration project truck


Exhibit A. Scope and Methodology
                                                                                 35


with a current Commercial Vehicle Safety Alliance decal be checked and not
undergo a full North American Standard inspection when entering the United
States at a border crossing, we identified any instances where inspections were
performed on a particular day, but for which FMCSA recorded no border
crossings. We identified 111 inspections performed on Trinity trucks at Eagle
Pass, Texas, during a 6-day period when FMCSA had recorded no truck crossings.
FMCSA reviewed our documentation and agreed that the record of Trinity’s truck
crossings was incomplete for those 6 days. We completed similar judgmental
analyses for four additional carriers and found minor discrepancies for three of the
carriers and no discrepancies for one carrier.

We obtained access to FMCSA’s GPS system and conducted tests to determine
whether FMCSA’s crossing records were accurately reporting trips beyond the
commercial zones. We tested one carrier because during a site visit to the border,
drivers working for this carrier indicated that they were dropping their tractors in
the commercial zone and picking up a tractor owned by a U.S. carrier to travel to
their final destination. At this point, the vehicle would no longer be a
demonstration project carrier. In addition, this carrier represented a large
percentage of trips recorded by FMCSA as going beyond the zone. We
judgmentally selected 41 crossings of this carrier’s trucks between March 19 and
March 24, 2008, and examined GPS histories of travel in the United States for
each truck represented. We were unable to complete an analysis on four of the
crossings because of a lack of information. For 15 trips, FMCSA recorded them
as not going beyond the commercial zone, and GPS histories supported this for all
but one, although this truck did not reach its stated destination. For 22 trips,
FMCSA recorded them as going beyond the commercial zone to either Ft. Worth
or Houston, Texas. The GPS histories did not support these trips as reaching
Ft. Worth or Houston or going beyond the commercial zone. The testing raises
questions about the number of trucks that actually traveled beyond the commercial
zone. Yearend statistics number this carrier’s trips beyond the zone at 392 of a
total of 1,443, or about 27 percent of all trips beyond the zone.

Using statistical audit software, we compared CBP crossing data and FMCSA
crossing records to assess the reliability of the FMCSA quality control plan and
determine whether the initial report, dated March 28, 2008, accurately portrayed
results. Because the data did not provide vehicle specific information, such as a
vehicle identification number, we sorted both FMCSA and CBP data by the
number of crossings logged by each carrier at a particular border crossing on any
day and compared the resulting number of crossings per CBP data to the number
of crossings per FMCSA data. Overall, we found only a 24.4-percent match
between CBP and FMCSA, primarily due to CBP’s lack of crossing data. While
FMCSA recorded data for 3,939 crossings, CBP recorded data for only 2,896.
CBP did not log any crossing data for 7 of the 17 carriers.


Exhibit A. Scope and Methodology
                                                                                   36


Additionally, we reviewed training rosters provided by FMCSA and the IACP to
identify the number of law enforcement personnel trained and the states they
represented. We obtained data from FMCSA and the DOT warehouse on the
production and distribution of educational brochures used to familiarize state and
local law enforcement agencies with demonstration project issues, including
cabotage, operating authority, and English language proficiency, and a brochure
advertising the available training. We also telephoned a small number of trainees
to verify the course curriculum and obtain their opinion on the usefulness of the
course.

We interviewed FMCSA Division personnel and state personnel responsible for
submitting convictions of Mexican drivers to the MCDB to ascertain the status of
corrective action plans. We conducted a site visit to the FMCSA contractor that
maintains the MCDB to observe operations. Site visits were also made to the four
border states, either by this audit team or an audit team conducting a related audit.
We obtained convictions of Mexican drivers in the United States that were
submitted to the MCDB during fiscal year 2007 and the first quarter of fiscal year
2008 and compared driver’s license numbers of drivers participating in the
demonstration project to those convictions. We found that 12 convictions were
posted for nine drivers during fiscal year 2007 and the first quarter of fiscal year
2008 although none of the convictions were in categories that would result in
disqualification based on U.S. regulations. This analysis was limited by the
quality of the MCDB data that we received.

We conducted interviews with FMCSA personnel regarding Trinity’s withdrawal
from the demonstration project and examined documents that Trinity submitted to
FMCSA. We used inspection data in MCMIS to determine the number of
inspections Trinity underwent during the year prior to the start of the
demonstration project and during Trinity’s participation in the project. We used
MCMIS data to identify and count violations, out-of-service violations, and the
number of motorized vehicles and trailers that Trinity used. We also used the data
to calculate out-of-service rates and project the effect of Trinity’s participation on
the safety performance during the first year of the demonstration project, if it had
remained in the project.




Exhibit A. Scope and Methodology
                                                                                   37




EXHIBIT B. PRIOR AUDIT COVERAGE

Prior OIG Audits
Our interim report, issued in March 2008, identified three issues at the 6-month
point in the project.

First, fewer carriers and vehicles than expected have participated so far in the
project. As a result, no reliable statistical projections regarding safety attributes
were possible at the midpoint of the project, although certain characteristics of the
Mexican carriers participating in the project, such as the number of vehicles and
drivers, may be representative of a larger group of carriers that have previously
applied for long-haul authority.

Second, the Department had established and was supporting an independent panel
to assess any adverse safety impacts from the project although the panel was
concerned that it would not have sufficient data to draw meaningful conclusions at
the conclusion of the project’s initial 12-month period.

Third, FMCSA had established and enhanced mechanisms for state and Federal
monitoring and enforcement of safety rules, and FMCSA records showed that
about 3,700 checks had been done at the border. However, a key quality control
measure promised to Congress had not been implemented. This control measure
was designed to ensure that checks of all Mexican drivers and vehicles crossing
the border were occurring as planned. Without this quality control measure,
FMCSA did not have assurance that it had checked every Mexican truck and
driver that was participating in the project every time they cross the border into the
United States.

Additional OIG reports issued on this subject area are listed below.

• OIG Report Number MH-2008-081, “Report on the Scope and Methodology of
  FMCSA’S Review of Canadian/Mexican Compliance with Federal
  Commercial Motor Vehicle Safety Standards,” September 24, 2008.

• OIG Report Number MH-2008-040, “Interim Report on NAFTA Cross-Border
  Trucking Demonstration Project,” March 10, 2008.

• OIG Report Number MH-2007-065, “Issues Pertaining to the Proposed
  NAFTA Cross-Border Trucking Demonstration Project,” September 6, 2007.




Exhibit B. Prior Audit Coverage
                                                                      38


• OIG Report Number MH-2007-062, “Follow-up Audit on the Implementation
  of the North American Free Trade Agreement’s Cross-Border Trucking
  Provisions,” August 6, 2007.

• OIG Report Number MH-2005-032, “Follow-Up Audit of the Implementation
  of the North American Free Trade Agreement’s Cross-Border Trucking
  Provisions,” January 3, 2005.

• OIG Report Number MH-2003-041, “Follow-Up Audit on the Implementation
  of Commercial Vehicle Safety Requirements at the U.S.-Mexico Border,”
  May 16, 2003.

• OIG Report Number MH-2002-094, “Implementation of Commercial Vehicle
  Safety Requirements at the U.S.-Mexico Border,” June 25, 2002.

• OIG Report Number MH-2001-096, “Motor Carrier Safety at the U.S.-Mexico
  Border,” September 21, 2001.

• OIG Report Number MH-2001-059, “Interim Report on Status of
  Implementing the North American Free Trade Agreement’s Cross-Border
  Trucking Provisions,” May 8, 2001.

• OIG Report Number TR-2000-013, “Mexico-Domiciled Motor Carriers,”
  November 4, 1999.

• OIG Report Number TR-1999-034, “Motor Carrier Safety Program for
  Commercial Trucks at U.S. Borders,” December 28, 1998.




Exhibit B. Prior Audit Coverage
                                                                                                                      39




EXHIBIT C. PENDING LITIGATION AND ACTIONS THAT
MAY IMPACT CONTINUATION OF DEMONSTRATION
PROJECT
In August 2007, the Sierra Club and other parties filed an appeal in the U.S. Court
of Appeals for the 9th Circuit to stop the demonstration project on several
grounds. 33 The challenge to the demonstration project also includes an issue
concerning the interpretation of an appropriations restriction in the fiscal year
2008 Consolidated Appropriations Act. 34

The December 2007, fiscal year 2008 Consolidated Appropriations Act stated:

            None of the funds made available under this Act may be used to
            establish a cross-border motor carrier demonstration program to
            allow Mexico-domiciled motor carriers to operate beyond the
            commercial zones along the international border between the United
            States and Mexico.

The Department interpreted this provision to restrict funding only to future
demonstration projects. Some members of Congress and outside parties
contended that the provision restricted funding for the current, ongoing
demonstration project as well.

On March 10, 2008, Senator Byron L. Dorgan of the Senate Committee on
Commerce, Science, and Transportation and three other congressmen asked the
Government Accountability Office (GAO) to review the Department’s action to
determine whether continuation of the project violated the Antideficiency Act. At
this time, we do not have information on the outcome of GAO’s review.

Oral argument on the Sierra Club case was held in February 2008, and at the
argument, the interpretation of the appropriations restrictions was specifically
addressed by the court. A decision is pending.




33
     Sierra Club, et al. v. Department of Transportation, et al., No. 07-73415 (9th Circuit filed August 29, 2007).
34
     Pub. L. No. 110-161, Division K, Title I, § 136 (2007).




Exhibit C. Pending Litigation and Actions That May Impact the
Continuation of the Demonstration Project
                                                                            40




EXHIBIT D. SITE INSPECTIONS
We conducted audit work at 11 of 25 commercial truck border crossings. Our
selection included all 10 border crossings that had been used by demonstration
project trucks as of February 23, 2008. We included an eleventh border crossing
due to its proximity to another site.

   Border Crossing                            Location

   Bridge of the Americas                     El Paso, TX

   Calexico-East                              Calexico, CA

   Columbia Solidarity Bridge III             Laredo, TX

   Piedras Negras - Camino Real

      International Bridge II                 Eagle Pass, TX

   Otay Mesa Cargo North                      Otay Mesa, CA

   Rio Grande City - Camargo Bridge           Rio Grande City, TX

   San Luis - San Luis Rio Colorado           San Luis, AZ

   Santa Teresa - San Jeronimo                Santa Teresa, NM

   Tecate                                     Tecate, CA

   World Trade Bridge                         Laredo, TX

   Ysleta International Bridge                El Paso, TX




Exhibit D. Site Inspections
                                                                      41




EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                  Title

  Kerry R. Barras                       Program Director

  Joan Becker                           Project Manager

  David Pouliott                        Project Manager

  Kimberley Bolding                     Senior Auditor

  Pat Conley                            Senior Auditor

  Tony Saraco                           Senior Auditor

  Michael Masoudian                     Analyst

  Calvin Moore                          Analyst

  Anette Soto                           Analyst

  Scott Williams                        Analyst

  Tom Lehrich                           Chief Counsel

  Seth Kaufman                          Associate Counsel

  Petra Swartzlander                    Statistician

  William Savage                        Information Technology Specialist

  Harriet Lambert                       Writer-Editor




Exhibit E. Major Contributors to This Report
                                                                                                          42




           APPENDIX. MANAGEMENT COMMENTS




           U.S. Department
                                                            Memorandum
           Of Transportation

           Federal Motor Carrier
           Safety Administration



Subject:   INFORMATION: Response to the Office of the              Date:
                                                                              JAN 16 2009
           Inspector General’s Draft Report “Status Report of
           NAFTA Cross-Border Trucking Demonstration
           Project” No. 08M3005M000

From       John H. Hill                                            Reply to   William Quade
                                                                   Attn: of
           Administrator                                                      MC-E

To:        Joseph W. Comé
           Assistant Inspector General
              for Highway and Transit Audits

           The Federal Motor Carrier Safety Administration (FMCSA) appreciates the opportunity to
           review the draft report titled, “Status Report of NAFTA Cross-Border Trucking
           Demonstration Project.” The Agency would like to recognize the effort put forward by the
           Office of the Inspector General (OIG) in development of this report and appreciates the
           opportunity to respond to its recommendations.

           While in large part the FMCSA agrees with the recommendations proposed by the OIG, we
           believe it necessary to clarify some aspects which may have contributed to the development
           of the recommendations. For example, the OIG report states, “…the Global Positioning
           System (GPS) acquired for monitoring truck movements had limited capabilities.” While the
           GPS system acquired by FMCSA for this project does not have some advanced features, such
           as geo-fencing and automated mileage reporting, the GPS system provides the data necessary
           to accomplish its intended functions, namely detecting potential violations of the hours-of-
           service regulations and cabotage restrictions and providing a basis for FMCSA to estimate
           the mileage of trucks operating in the demonstration project. FMCSA is also using the GPS
           system as an additional quality control measure to ensure that we meet our voluntary
           commitment to check every Mexican truck every time it crosses the border into the United
           States.

           The data collected by the GPS system records the time and position of each vehicle.
           Analysis of the data can show when and where vehicles cross into the United States and
           identify when the vehicle travels beyond the border commercial zones. Further, analysis of
           the position “pings” reveals the approximate number of miles any Mexican truck engaging in


           Appendix. Management Comments
                                                                                                 43


long haul operations travels while in the United States. FMCSA acknowledges that geo-
fencing and automated mileage reporting would be useful, but has determined the extra costs
for these enhancements were not justified because the current system accomplishes our goals.

The OIG report also addresses whether the 29 participant motor carriers are representative of
those carriers “likely to engage in long haul operations.” The report assumes that the 775
motor carriers that submitted an application for long haul operating authority are “likely” to
engage in long haul operation. The FMCSA believes this assumption is in error.

The purpose of the Demonstration Project is to demonstrate that Mexican motor carriers that
meet FMCSA’s established safety requirements can safely operate in the United States
beyond the border commercial zones. FMCSA is clearly not obligated to ensure that carriers
that do not meet its safety requirements for receiving provisional long-haul operating
authority, or are otherwise legally ineligible to receive such authority, are “represented” in
the Project because we have good reason to question whether such carriers could operate
safely during the Project and because such carriers would, in any event, not be authorized to
engage in long-haul operations when a full border opening is implemented. Therefore, it is
entirely reasonable to exclude carriers that cannot or will not meet FMCSA’s safety standards
from the population of carriers deemed “likely to engage in long-haul operations.” These
carriers fall into the following categories:

   1. Approximately 340 were dismissed because their applications were incomplete.
      Without a complete application, an applicant would not receive long haul operating
      authority and could not legally operate beyond the border commercial zones in the
      United States.

   2. 138 carriers were found to be ineligible for the Demonstration Project. Reasons for
      ineligibility include alleged security issues, transportation of passengers,
      transportation of hazardous materials; and unresolved safety issues (including unpaid
      penalties to FMCSA).

   3. Approximately 297 carriers could not have their applications further processed by
      FMCSA either because their contact information was out of date and we were unable
      to find any new contact information or because we contacted the applicant, but the
      applicant declined to participate in the Project, effectively withdrawing itself from
      consideration for the Project.

   4. Of the 100 remaining carriers that have undergone the required Pre-Authorization
      Safety Audit (PASA), 32 failed to successfully complete the PASA and were denied
      long-haul operating authority. In other words, approximately one-third of motor
      carriers that submit a complete application could be expected to fail the PASA, be
      denied operating authority, and be ineligible to engage in long haul operations in the
      United States.




Appendix. Management Comments
                                                                                                   44


    5. Of the 68 motor carriers that have successfully completed the PASA, only 30 filed
       the appropriate insurance forms required to obtain long haul operating authority.
       Without such operating authority, the remaining 38 motor carriers are not eligible to
       perform long haul transportation in the United States.

As described above, a large number of Mexican carrier applicants have not complied with
FMCSA requirements for conducting long-haul operations into the United States and,
accordingly, should not be deemed “likely to engage in” such operations whether they are
part of the Demonstration Project or a full border opening.

The OIG report also notes differences in the business characteristics of the 29 motor carriers
that were issued operating authority compared to the 775 applicants with respect to the form
of ownership and type of registration (operating authority) sought. The report fails to
indicate how these characteristics relate to safety. On the other hand, the 29 motor carriers
bear similar characteristics in safety-related areas, such as number of vehicles and drivers.

The OIG report expresses concern about the vetting process and states, “Accordingly, if
criminal vetting procedures are not applied in the future, the 138 carriers that were eliminated
from project consideration may be eligible to conduct long haul operations… .” The FMCSA
offers the following observations.

    1. As noted above, not all of the 138 motor carriers were vetted for alleged criminal
       activities. Some carriers were eliminated from consideration because they transport
       hazardous materials or passengers. Section 6901(d) of the U.S. Troop Readiness,
       Veterans’ Care, Katrina Recovery, and Iraq Accountability Appropriations Act, 2007,
       requires FMCSA to establish separate demonstration projects for these carriers. As a
       result, these carriers were not eligible to participate in the current project, which is
       limited to motor carriers transporting non-hazardous property.

    2. FMCSA has no current plans to alter the current vetting process in the case of a full
       border opening. As such, only carriers that pass the vetting process should be
       considered as likely to engage in long haul operations in the United States.

The OIG report also voiced concerns with respect to the quality control plan designed to
ensure that every participant carrier’s vehicle is checked as it enters the United States. There
is no statutory or regulatory requirement obligating FMCSA to check each vehicle every time
it enters the United States. This practice is intended to alleviate concerns regarding the
frequency of inspections. As such, FMCSA implemented a policy and developed a quality
control plan to ensure the effectiveness of the policy.

The report’s concerns about the quality control plan center around the completeness and
randomness of the data used in the quality control plan. FMCSA offers the following
observations:

    1. While FMCSA acknowledges that its information on the number of crossings exceeds
       the number of commercial crossings recorded by U.S. Customs and Border Protection
       (CBP), FMCSA supplements its quality control analysis with data from the GPS
       system.



Appendix. Management Comments
                                                                                                    45


    2. The manual crossing data collection process originally contemplated has been
       replaced with an automated process. Thus, the efficiency and comprehensiveness of
       FMCSA’s crossing data has been enhanced.

    3. FMCSA’s quality control plan calls for an analysis of 10 percent of CBP’s
       commercial crossing data. In practice, FMCSA is analyzing 100 percent of the CBP
       data and can validate approximately 99 percent of the crossings.

In addition to the concerns about the GPS system, quality control plan, and carrier sample
size/composition, FMCSA would like to offer the following points of clarification:

    1. Transportes Francisca Burgos Vizcarra did operate in the United States after its
       operating authority was revoked. However, FMCSA was able to detect this violation
       within days after it occurred and the motor carrier was sanctioned. The FMCSA
       assessed two administrative penalties totaling $16,700 and these penalties are being
       paid by the carrier.

    2. With respect to the Independent Evaluation Panel’s statement concerning the 11
       critical safety violations, the OIG report failed to include FMCSA’s response to the
       Panel regarding this issue. The 11 critical safety violations were intended to provide
       a measure that the evaluation panel could use to compare the performance of Mexico-
       domiciled carriers to U.S. carriers. FMCSA never intended to fail demonstration
       project carriers for these violations and has no regulatory basis for applying such
       criteria in a PASA.

FMCSA’s response to the recommendations put forward in this report is detailed below.

RECOMMENDATIONS AND RESPONSES

RECOMMENDATION 1a. Determine the minimum number of Mexican carriers that must
participate in the demonstration project necessary to yield statistically valid results. In order
to calculate this number, FMCSA must address, at a minimum:

    •   the definition of the universe of Mexican carriers likely to travel beyond the
        commercial zones for which estimates are to be made;
    •   the sampling unit for which measurements are to be made, such as drivers, vehicles,
        trucks, or carriers;
    •   the attributes or variables to be estimated or compared, such as driver out-of-service
        rates, vehicle out-of-service rates, or crash rates;
    •   the confidence level; and
    •   the margin of error that these estimates should achieve.

Response: FMCSA concurs with the recommendation. However as stated above, FMCSA
does not agree with the OIG’s estimate of the universe of carriers likely to engage in long
haul operations.




Appendix. Management Comments
                                                                                                    46


RECOMMENDATION 1b. Develop a plan for achieving an adequate level of
participation if the current number of Mexican carriers participating in the project is less than
the number of carriers necessary to yield statistically valid results.

Response: The FMCSA concurs with this recommendation. However, while FCMSA can
establish a plan to encourage the participation of more motor carriers in the demonstration
project, FMCSA cannot guarantee the participation of any other motor carriers in the
demonstration project. From the perspective of a motor carrier, participation in the
demonstration project is a business decision. Economic conditions, continued political
opposition to the demonstration project, as well as other factors affecting profitability will
continue to determine whether motor carriers are willing to invest the resources necessary for
participation.

RECOMMENDATION 1c. Provide to the OIG and appropriate congressional committees,
the calculated minimum sample size, the methodology used to calculate the minimum sample
size, and the plan to achieve adequate participation of Mexican carriers in the demonstration
project as needed.

Response: The FMCSA concurs with this recommendation.

RECOMMENDATION 2a. Obtain assurance that every demonstration truck is checked
every time it crosses into the United States by developing and implementing a new quality
control plan.

Response: The FMCSA concurs with this recommendation. The FMCSA quality control
plan has evolved during the demonstration project as the Agency gained experience with the
data collected by CPB. The current practices are not reflected in the original plan transmitted
to Congress on September 6, 2007. FMCSA will update the quality control plan to reflect
current practices.

RECOMMENDATION 2b. Obtain assurance that every demonstration truck is checked
every time it crosses into the United States by providing to the OIG and appropriate
congressional committees a complete description of this plan and the procedures used to
implement the plan.

Response: FMCSA concurs with this recommendation. Although this policy is not required
by statute or regulation, FMCSA agrees to provide a copy of its quality control plan and data
to the OIG and appropriate congressional committees.

RECOMMENDATION 3. Conduct a cost/benefit analysis to determine whether renewing
GPS services provides benefits that outweigh the costs.

Response: The FMCSA does not concur with this recommendation. The FMCSA has
instituted quality control policies that utilize the GPS data to monitor demonstration project
participants for potential hours-of-service and cabotage violations. The GPS data are also
being used to monitor our checks of every vehicle, every time, and the data concerning the
location of these trips will be used to estimate the mileage traveled by carriers in the
demonstration project. Therefore, the GPS data are a critical part of FMCSA’s oversight
regimen and we see no value in conducting a cost/benefit analysis.


Appendix. Management Comments
                                                                                               47



If you need additional information or clarification, please contact William Quade, Associate
Administrator for Enforcement and Program Delivery, at 202-366-2172.




Appendix. Management Comments
The following pages contain textual versions of the charts and figures found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
                    Status Report on NAFTA Cross-Border
                       Trucking Demonstration Project


                       Section 508 Compliant Presentation

Table 1. Comparison of Out-of-Service Rates of Project Participants To
Other Carrier Groups, From September 6, 2007, Through September 5, 2008

This table demonstrates a comparison of both driver and vehicle out-of-service
rates for the following four motor carrier groups: project participants, commercial
zone carriers, grandfathered and certificated carriers, and United States carriers.
The OIG calculated these rates by analyzing data in FMCSA’s Motor Carrier
Management Information System. The results of the two separate comparisons are
as follows:

Driver Out-of-Service Rate Comparison

Motor Carrier Group                       Driver Out-of Service Rate
Project Participants                      0.46
Commercial Zone                           1.08
Grandfathered and Certificated            3.79
United States                             6.94

Vehicle Out-of-Service Rate Comparison

Motor Carrier Group                       Vehicle Out-of Service Rate
Project Participants                      8.29
Commercial Zone                           21.60
Grandfathered and Certificated            24.23
United States                             21.72

Figure 1. Driver Out-of-Service Rates by Comparison Groups, Fiscal Years
2004-2007

Figure 1 is a vertical column graph that depicts the driver out-of-service rates for
each of five motor carrier groups (United States carriers, commercial zone
carriers, grandfathered and certificated carriers, applicant carriers, and participant
carriers) during fiscal years 2004 through 2007. The OIG calculated these out-of-
service rates by analyzing data in FMCSA’s Motor Carrier Management
Information System. Our analysis of FY 2007 utilized data through September 5,
2007.
The following are each of the carrier’s driver out-of-service rates by fiscal year.

Carrier Group                      FY04         FY05        FY06           FY07
United States                      6.61         6.91        7.32           7.21
Commercial Zone                    1.56         1.14        1.26           0.98
Grandfathered and Certificated     0.98         1.10        1.38           1.55
All Other Applicants               0.99         0.82        1.11           1.14
Project Participants               0.35         0.23        0.29           0.23

Figure 2. Vehicle Out-of-Service Rates by Comparison Groups, Fiscal Years
2004-2007

Figure 2 is a is a vertical column graph that depicts the vehicle out-of-service rates
for each of five motor carrier groups (United States carriers, commercial zone
carriers, grandfathered and certificated carriers, applicant carriers, and participant
carriers) during fiscal years 2004 through 2007. The OIG calculated these out-of-
service rates by analyzing data in FMCSA’s Motor Carrier Management
Information System. Our analysis of FY 2007 utilized data through September 5,
2007.

The following are each of the carrier’s vehicle out-of-service rates by fiscal year.

Carrier Group                      FY04         FY05        FY06           FY07
United States                      23.07        22.55       22.32          21.71
Commercial Zone                    21.99        20.82       21.30          21.91
Grandfathered and Certificated     20.78        20.81       21.84          23.41
All Other Applicants               17.76        17.80       18.25          18.74
Project Participants               13.44        13.16       12.31          11.02

Table 2. Impact of Trinity’s Withdrawal on the Demonstration Project Out-
of-Service Rate Versus U.S. Carriers Out-of-Service Rates

Table 2 demonstrates a comparison of the actual out-of-service rate for project
participants to an estimate of what the project participants’ out-of-service rate
would have been if Trinity had not withdrawn from the demonstration project, and
the actual out-of service rate for United States carriers. These rates are based on
out-of-service inspections for the time period September 6, 2007, through
September 5, 2008.
 The following is the comparison of driver out-of-service rates.

 Rate Reviewed                                              Driver Out-of-Service Rate
 Actual Rate, Demonstration Project Participants            0.46
 Estimated rate if Trinity had not withdrawn                0.39
 Actual Rate, United States Carriers                        6.94

 The following is the comparison of vehicle out-of-service rates.

 Rate Reviewed                                              Vehicle Out-of-Service Rate
 Actual Rate, Demonstration Project Participants            8.29
 Estimate, if Trinity had not withdrawn                     9.17
 Actual Rate, United States Carriers                        21.72

 Table 3. Results of Statistical Testing Comparing Business Characteristics of
 Project Participants to All Other Applicants

 This table summarizes the results of statistical testing to determine whether the
 participants in the demonstration project were statistically significantly different
 from all other applicants for long-haul authority, in terms of certain business
 characteristics.

Characteristics Tested                    Test Used         Results
Form of business                          Chi-square Test   Statistically Significantly Different
Currently operates in the United States   Chi-square Test   Not Statistically Significantly Different
Number of vehicles owned by mean          T-Test            Not Statistically Significantly Different
Number of trailers by mean                T-Test            Not Statistically Significantly Different
Number of drivers by mean                 T-Test            Not Statistically Significantly Different
Type of registration sought               Chi-square Test   Statistically Significantly Different
Hazmat carrier                            Chi-square Test   Not Statistically Significantly Different

 Table 4. Statistically Significant Difference Between Participants and Other
 Carrier Groups, From October 1, 2003, Through September 5, 2007

 This table summarizes the results of statistical analyses to determine whether the
 driver and vehicle out-of-service rates measured over fiscal years 2004 through
 2007 for the demonstration project participants were or were not statistically
 significantly different from the rates during that same period for three other
 Mexican motor carrier groups and United States carriers.
 The following are the results of the driver out-of-service rate analysis.

Carrier Group                        Out-of-Service Rate       Results of Statistical Test
Project Participants                 0.3                       Not Applicable
All Other Applicants                 1.0                       Statistically Significantly Different
Grandfathered and Certificated       1.3                       Statistically Significantly Different
Commercial Zone                      1.2                       Statistically Significantly Different
United States                        7.1                       Statistically Significantly Different

 The following are the results of the vehicle out-of-service rate analysis.

Carrier Group                        Out-of-Service Rate       Results of Statistical Test
Project Participants                 12.2                      Not Applicable
All Other Applicants                 18.2                      Statistically Significantly Different
Grandfathered and Certificated       21.7                      Statistically Significantly Different
Commercial Zone                      21.4                      Statistically Significantly Different
United States                        22.3                      Statistically Significantly Different

 Table 5. Statistically Significant Difference Between Carrier Groups, from
 October 1, 2003, Through September 5, 2007

 This table summarizes the results of statistical analyses to determine whether
 driver and vehicle out-of-service rates measured from fiscal year 2004 through
 fiscal year 2007 for applicants that were vetted out of the demonstration project
 were or were not statistically significantly different from the rates during that same
 period for applicants that were not vetted out of the project.

 The following are the results of the driver out-of-service rate analysis.
 Carrier Group                   Out-of-Service Rate       Results of Statistical Test
 Applicants vetted out           0.7                       Not Applicable
 Applicants not vetted out       1.1                       Statistically significantly different


 The following are the results of the vehicle out-of-service analysis.
 Carrier Group                   Out-of-Service Rate       Results of Statistical Test
 Applicants vetted out           15.5                      Not Applicable
 Applicants not vetted out       19.1                      Statistically significantly different


 Table 6. Statistically Significant Difference Between Carrier Groups From
 September 6, 2007, Through September 5, 2008

 This table summarizes the results of statistical analyses to determine whether
 driver and vehicle out-of-service rates measured from September 6, 2007, through
 September 5, 2008, for applicants that were vetted out of the demonstration project
 were or were not statistically significantly different from the rates during that same
 period for applicants that were not vetted out of the project.

 The following are the results of the driver out-of-service rate analysis.
 Carrier Group               Out-of-Service Rate   Results of Statistical Test
 Applicants vetted out       2.0                   Not Applicable
 Applicants not vetted out   1.8                   Not statistically significantly different


 The following are the results of the vehicle out-of-service rate analysis.
 Carrier Group               Out-of-Service Rate   Results of Statistical Test
 Applicants vetted out       16.5                  Not Applicable
 Applicants not vetted out   18.6                  Statistically significantly different


 Table 7. Statistically Significant Difference Between Participants and Other
 Carrier Groups, From September 6, 2007, Through September 5, 2008

 This table summarizes the results of statistical analyses to determine whether the
 driver and vehicle out-of-service rates measured from September 6, 2007, through
 September 5, 2008, for the demonstration project participants were statistically
 significantly different from the rates during the same period for three other
 Mexican carrier groups and United States carriers.

 The following are the results of the driver out-of-service rate analysis.
Carrier Group                        Out-of-Service Rate    Results of Statistical Test
Project Participants                 0.5                    Not Applicable
All Other Applicants                 2.4                    Statistically Significantly Different
Grandfathered and Certificated       3.8                    Statistically Significantly Different
Commercial Zone                      1.1                    Statistically Significantly Different
United States                        6.9                    Statistically Significantly Different


 The following are the results of the vehicle out-of-service rate analysis.
Carrier Group                        Out-of-Service Rate    Results of Statistical Test
Project Participants                 8.3                    Not Applicable
All Other Applicants                 19.0                   Statistically Significantly Different
Grandfathered and Certificated       24.2                   Statistically Significantly Different
Commercial Zone                      21.6                   Statistically Significantly Different
United States                        21.7                   Statistically Significantly Different
Table 8. Results from Testing Crossing Records (Confidence Level is 90
Percent)

This table summarizes the results of accuracy and completeness testing of
demonstration project border crossing records and supporting documentation for
those records at 10 commercial border crossings we visited. From a universe of
6,246 crossing records, the table provides statistical estimates of the proportion
and number of records resulting from four tests that we conducted. The four tests
we conducted were: number of records with supporting documents, number of
records with accurate supporting documents, number of documents with
corresponding records, and number of documents with accurate corresponding
records. In addition, the table shows the proportion and number of duplicate
border crossing records that exist based on testing a universe of 104 duplicate
records that we identified before our site visits.

The following are the results of our testing 331 border crossing records to
determine the proportion and number of records with supporting documents.
Test Results   Lower Confidence Level   Best Estimate   Upper Confidence Level
Proportion     97.8 percent             99.1 percent    100.0 percent
Number         6,109                    6,187           6,243


The following are the results of testing 328 border crossing records to determine
the proportion and number of records with accurate supporting documents.
Test Results   Lower Confidence Level   Best Estimate   Upper Confidence Level
Proportion     92.7 percent             95.2 percent    97.7 percent
Number         5,733                    5,889           6,045


The following are the results of testing 232 supporting documents to determine the
proportion and number of documents recorded as border crossing records.
Test Results   Lower Confidence Level   Best Estimate   Upper Confidence Level
Proportion     91.7 percent             94.5 percent    97.2 percent
Number         5,737                    5,910           6,083


The following are the results of testing of 222 supporting documents to determine
the proportion and number of documents that were recorded accurately as border
crossing records.
Test Results   Lower Confidence Level   Best Estimate   Upper Confidence Level
Proportion     94.8 percent             96.9 percent    99.0 percent
Number         5,597                    5,720           5,842
The following are the results of testing of 55 duplicate entries to determine the
proportion and number of border crossing records that were duplicate entries.
Test Results   Lower Confidence Level   Best Estimate   Upper Confidence Level
Proportion     100.0 percent            100.0 percent   100.0 percent
Number         104                      104             104
